For Immediate Release
                                        Contact: Paul K. Martin (202) 514-3435

         Inspector General Finds Widespread Failures
      in the INS’s Mailing of Immigration Documents for
   Two September 11 Terrorists Six Months After the Attacks

       May 20, 2002 (Washington, D.C.) – Glenn A. Fine, Inspector General of
the U.S. Department of Justice, today released a report examining why the
Immigration and Naturalization Service (INS) mailed forms notifying a Florida
flight school that two September 11 terrorists had received approval to change
their immigration status from “visitors” to “students” six months after the
terrorists attacks. The mailing of these forms raised questions about the INS’s
handling of change of status applications for Mohamed Atta and Marwan
Alshehhi and their three admissions into the United States in 2000-2001. The
incident also raised serious concerns about the INS’s monitoring and tracking
of foreign students in the United States.

       The 188-page report found that the INS’s adjudication of Atta’s and
Alshehhi’s change of status applications and its notification to the flight school
were untimely and significantly flawed. First, the INS took more than
10 months to adjudicate the two men’s applications. As a result, Atta’s and
Alshehhi’s applications were not adjudicated until July and August 2001, well
after they had finished their flight training course at Huffman Aviation, a flight
training school in Venice, Florida. Second, the INS adjudicator who approved
their applications did so without adequate information, including the fact that
Atta and Alshehhi had left the country two times after filing their applications
which meant they had abandoned their request for a change of status. And
third, even after the INS took 10 months to approve the applications, the
notification forms were not sent to the Florida flight school for an additional
7 months because the INS failed to adequately supervise a contractor who
processed the documents.

       After the September 11 attacks, the INS had gathered Atta’s and
Alshehhi’s INS files for the Federal Bureau of Investigation. “However, no one
in the INS located – or even considered locating – the notification forms that
were being processed by the INS contractor,” Fine said. “As a result, the forms
continued to be processed and were later mailed to Huffman Aviation 6 months
after September 11. In our judgment, this was a widespread failure by many
individuals in the INS,” Fine said.

      With regard to Atta’s and Alshehhi’s entries into the United States, the
OIG concluded that the evidence does not show that the inspectors who
admitted them violated INS policies and practices. The OIG found, however,
that prior to September 11 the INS did not closely scrutinize aliens entering the
country to become students and did not uniformly require foreign students to
present the required documentation before entering the United States.

      Finally, the OIG evaluated the INS’s tracking systems for foreign
students – the paper-based system that exists now as well as SEVIS, the
Internet-based system that the INS is developing. “The INS’s current, paper-
based tracking system is inefficient, inaccurate, and unreliable,” Fine said.
“SEVIS has the potential to improve the INS’s monitoring of foreign students,
but SEVIS alone will not solve the problems of the INS’s tracking of foreign
students.”

       For example, the report noted that the INS must review the schools that
are eligible to enroll foreign students, must ensure that information in SEVIS is
timely and accurate, must train INS employees and school officers on their
responsibilities, and must ensure that the information in SEVIS is properly
analyzed and used.

      The report offers 24 recommendations to help address the problems
highlighted by the Atta and Alshehhi cases and the problems found by the
OIG’s review of the INS’s foreign student program.


            The full report is available on the OIG’s website at
     “http://www.usdoj.gov/oig” under the heading “Special Reports”
